Audit Report

Office of Justice Programs,
National Institute of Justice, No-Suspect Casework DNA Backlog Reduction Program,
Cooperative Agreement Awarded to the State of Florida Department of Law Enforcement,
Cooperative Agreement Number 2002-DN-BX-K006, Tallahassee, Florida

Report No. GR-40-04-009


September 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the No-Suspect Casework DNA Backlog Reduction Program cooperative agreement awarded to the Florida Department of Law Enforcement (FDLE) by the U.S. Department of Justice, Office of Justice Programs (OJP), National Institute of Justice.  The purpose of this cooperative agreement is to:  1) reduce the backlog of no-suspect cases requiring DNA analysis in state and county crime laboratories,
2) analyze no-suspect cases using the Combined DNA Index System (CODIS) core 13 loci, 3) expedite the entry of CODIS applicable DNA profiles into state and national CODIS networks, and 4) increase Florida's DNA analysis production capability and capacity.  The FDLE was awarded a total of $2,795,086 to address the existing no-suspect backlog problem by:  1) outsourcing over 1,500 cases, 2) funding additional staff hours for no-suspect case analysis, and 3) upgrading equipment to improve efficiency and increase capacity of the existing laboratories. 

We tested the FDLE's accounting records to determine if reimbursements claimed for costs under the cooperative agreement were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the cooperative agreement.  As of March 23, 2004, the FDLE had been reimbursed $1,709,624 of the $2,795,086 in the cooperative agreement.

Our audit revealed that the FDLE charged unallowable costs to the cooperative agreement.  Additionally, we found that required reports were not always accurate. 
 

Specifically, we found:1

Expenditures totaling $4,542 that were not approved or exceeded the amounts approved by OJP. 

	Inaccurate Progress Reports.

These items are discussed in detail in the Findings and Recommendations section of this report.  Our audit objectives, scope, and methodology appear in Appendix I.  
   



Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and for a definition of questioned costs.